No. 21-295

 

IN THE
Supreme Court of the United States

In re AMERICA’S FRONTLINE DOCTORS, et al.,
Petitioners

ON PETITION FOR WRIT OF MANDAMUS TO THE
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA

BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF MANDAMUS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,929 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 29, 2021.

 

Wilson-Epes Printing Co., Inc.
